IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM OF 2020
Dieuseul brown
Petitioner,

)
)
)
)
)
)
)

vs
State Of Illinois

Case No.

NOTICE OF FILING
TO: The United States ;Clerk Office
One First Street N.E.
Washington, D.C. 20543

Solicitor General OF U.S.
Room 5614, Department Of Justice
950 Pennsylvania Ave, N.W.
Washington. D.C. 20530-001

PLEASE BE ADVISED that I have filed with the Clerk of the Court a
MOTION FOR APPOINTMENT OF COUNSEL, MOTION TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI and a copy is hereby served upon
you. also the petitioner files a LEAVE TO FILE A LATE WRIT OF CERTIORARI
in this case and a copy is also served/.upon you.
Di^us'eul Brown
Reg no.
2600 N. Brinton Ave
Dixon, illinois 61021
CERTIFICATE OF SERVICE
Dieuseul Brown, declares under penalty of perjury pursuant to 28 U.S.C. ยง
1746 that he mailed the above named a copy of the attached motions and
petition by placing it in the mail at Dixon Correctional Center, 2600 N
Brinton Ave, dixon Illinois 61021 on October 4, 2020.

Dieuseul Brown

RECEIVED
OCT 2 2 2020

